--                    CLOSEOUT FOR M94070026
     This case came to OIG on July 7, 1994, when Dr.
formerly program director for the
         in the Division of
                                                          -
                                                     (the program




                                                            -
director), informed us of a conversation he had had with
        (complainant 1 . The complainant subsequently sent an
August 14, 1994, letter detailinq her complaints to the Proaram

                                       --
agency).   C             #I, a research associate at
                          (the Institute), alleged that Dr.
       (the subject), director of the
(the facility) and a faculty member a t t h e u t e , had engaged
in discrimination on the basis of gender, attempted to destroy data
belonging to scientists other than himself, unfairly deprived the
complainant of telescope time, and retaliated against a technician
who testified as to the subject's discriminatory activities. At
the time of his alleged wrongdoing, - 1the subject's work at the
facility was supported by
     The program director also received a le
(complainant #2), a graduate student at the
who had visiting student status at the Institute. Complainant #2's
letter was addressed to                       of the Department of
Education Office of Civil Rights (OCR). In it, she explained that
she was dissatisfied with OCR1s handling of the sex discrimination
case and with the internal grievance procedures at the Institute.
Complainant #2 also informed OIG of an incident involving Dr.
             (complainant # 3 ) , formerly a graduate student at the
Institute. In an interview with OIG, complainant # 3 alleged that
the subject had destroyed data analyses that complainant #3 had
prepared.
     Before contacting NSF, complainants #1 and #2 had approached
OCR with their allegations. OCR dismissed certain allegations as
scientific disputes, but concluded that the remaining complaints
raised issues of gender discrimination that fell within its
jurisdiction. Included among the allegations OCR addressed as
gender discrimination were allegations that the subject had

                             - "
      h his award was entitled
           "   The subject was
                            page 1 of 4                      M94-26
                       CLOSEOUT FOR M94070026

discriminated in allocating access to research equipment and had
destroyed data belonging to another scientist. OCR initiated an
investigation into the allegations, whereupon the Institute offered
to settle the matter. OCR and the Institute agreed on a settlement
stipulating that the Institute would improve its procedures for
handling complaints of gender discrimination, remove the subject
from his position as director of the facility for three months,
take steps to protect the interests of women whom the subject had
allegedly harmed, and promise that neither the Institute nor its
employees would retaliate against the people who raised complaints
to OCR., The outlines of the settlement were reported in the
science press. Dissatisfied with the settlement, complainant #1
wrote to NSF and the other agency to amplify on the press reports
of the matter and to ask if either agency could do anything to
protect women like themselves from future discriminatory and
retaliatory actions by the subject.
     OIG considered whether we should initiate a misconduct in
science inquiry into allegations whose factual basis had already
been treated and settled by OCR as a matter of alleged gender
discrimination. We concluded that we should not. OIG decided that
in this case, where OCR, another agency of the federal government,
has taken action against a subject in response to an incident of
inappropriate behavior, it would be inequitable for NSF to take
action against the subject on the basis of the same incident unless
OCR1s resolution left NSF with a significant unresolved interest at
stake or the earlier action, however adequate to the alleged gender
discrimination, appeared to be grossly inadequate to the
seriousness of 'the alleged misconduct in science. In this case,
where the subject suffered a brief suspension from his position and
the stigma of a public sanction, we concluded that the results of
OCR1saction could not be considered grossly inadequate and did not
leave a compelling NSF interest in jeopardy.
     The incident involving complainant # 3 occurred after the OCR
settlement and was not covered by it. Complainant #3 told OIG that
she had been using the facility's mainframe computer to analyze a
large body of data collected e;lsewhere. She temporarily stored a
copy of the analyzed data on' a disk drive in the facility's
computer. The subject allegedly sought to work on the computer on
a weekend, found the disks full, sent an electronic mail message to
users saying that he needed disk space, and then, when space
remained unavailable some hours later, deleted the complainant's
analyzed data. Complainant # 3 stated that she had a backup tape
with the unanalyzed data and was able to recreate the analyses by
doing less than a week of work.


     Complainant # 3
                  I
                       said that she lacked documentary.evidence
                            page 2 of 4                     M94-26
                     CLOSEOUT FOR M94070026
relevant to this incident. She possessed neither a copy of the
subject's electronic mail message nor evidence indicating how much
time elapsed between the transmission of the message and the
destruction of her analyses., Complainant #3 noted that the
subject's electronic mail message would ordinarily have come to her
attention shortly after being sent (enabling her to store her .
analyses elsewhere) and that she knew that she could use the disk
space only temporarily. Complainant #3 characterized the subject's
action as "rude and inc~nsiderate,~  but said that neither she nor
colleagues at the facility whom she consulted considered it a
serious violation of professional standards.
     There was not sufficient evidence to substantiate the
allegation and warrant an investigation, and OIG saw no reason to
expect that additional inquiry would yield such evidence. OIG
decided that a combination of circumstances-- the missing
information concerning the subject's alleged actions, the evidence
that the subject had warned others that he might destroy materials
left on the disk, and complainant #3's testimony that, in the
research environment at the facility, the subject's actions were
not perceived to be a serious deviation from accepted practice--
warranted this conclusion.
     Complainant #1 reported another incident that occurred after
the OCR settlement and was not covered by it. The subject refused
complainant #lls request to borrow data from the facility unless
she returned other data belonging to the facility that was in her
possession.     Complainant #1 considered this action to be
retaliation against her for her complaints against the subject.
OIG determined that, whatever the subject1s motivation in making
the request, the request itself represented a legitimate effort by
the subject, acting as head of the facility, to ensure orderly
access to the facility's data. We therefore concluded that the
subject's action could not be misconduct.
     OIG, with the consent of complainant #I, notified the program
director that complainant #1 was concerned about possible future
restrictions on her access to data at the Institute that would




                                                       -
adversely affect her ability to perform her work under her NSF
awards. OIG informed the program director that he was free to take
appropriate actions that, in his judgment, would help complainant
#1 get appropriate access to the facility's data and facilitate

                                          , entitled
                                          ."  Her work under this
                                          the facility's archive.


--;
                           page 3 of 4
                      CLOSEOUT FOR M94070026

achievement of the goals of NSFrs award. OIG also reminded the
program director that he should refer any allegations of misconduct
in science arising out of this situation to OIG.
     This inquiry is closed and no further action will be taken on
this case.


cc:' Deputy Assistant Inspector General, Oversight;      Assistant
Inspector General, Oversight; IG




                           page 4 of 4
